<html>
<title> - FEDERALLY FUNDED RESEARCH: EXAMINING PUBLIC ACCESS AND SCHOLARLY PUBLICATION INTERESTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








                       FEDERALLY FUNDED RESEARCH:
                      EXAMINING PUBLIC ACCESS AND
                    SCHOLARLY PUBLICATION INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 29, 2012

                               __________

                           Serial No. 112-74

                               __________

 Printed for the use of the Committee on Science, Space, and Technology







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-607 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         PAUL D. TONKO, New York
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana               EDDIE BERNICE JOHNSON, Texas
DAN BENISHEK, Michigan
VACANCY
RALPH M. HALL, Texas






















                            C O N T E N T S

                        Thursday, March 29, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    18
    Written Statement............................................    19

Statement by Representative Paul Tonko, Ranking Minority Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    20
    Written Statement............................................    21

                               Witnesses:

Mr. H. Frederick Dylla, Executive Director and Chief Executive 
  Officer, American Institute of Physics
    Oral Statement...............................................    23
    Written Statement............................................    26

Mr. Elliot Maxwell, Project Director for the Digital Connections 
  Council, Committee on Economic Development
    Oral Statement...............................................    33
    Written Statement............................................    36

Dr. Crispin Taylor, Executive Director, American Society of Plant 
  Biologists
    Oral Statement...............................................    44
    Written Statement............................................    47

Mr. Stuart Shieber, Director, Office for Scholarly 
  Communications, Harvard University
    Oral Statement...............................................    54
    Written Statement............................................    57

Mr. Scott Plutchak, Director, Lister Hill Library at University 
  of Alabama at Birmingham
    Oral Statement...............................................    68
    Written Statement............................................    70

Discussion
  ...............................................................    76

             Appendix I: Answers to Post-Hearing Questions

Mr. H. Frederick Dylla, Executive Director and Chief Executive 
  Officer, American Institute of Physics.........................    92

Mr. Elliot Maxwell, Project Director for the Digital Connections 
  Council, Committee on Economic Development.....................   103

Dr. Crispin Taylor, Executive Director, American Society of Plant 
  Biologists.....................................................   108

Mr. Stuart Shieber, Director, Office for Scholarly 
  Communications, Harvard University.............................   120

Mr. Scott Plutchak, Director, Lister Hill Library at University 
  of Alabama at Birmingham.......................................   129

                              Appendix II:

Letter submitted by Representative Zoe Lofgren, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   138

Response to Federal Register Notice Request for Information 
  submitted by Dr. H. Frederick Dylla............................   142

Response to Federal Register Notice Request for Information 
  submitted by Dr. Crispin Taylor................................   166

ALPSP Response to OSTP Request for Information...................   179

 
                       FEDERALLY FUNDED RESEARCH:
                      EXAMINING PUBLIC ACCESS AND
                    SCHOLARLY PUBLICATION INTERESTS

                              ----------                              


                        THURSDAY, MARCH 29, 2012

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. The Subcommittee on Investigations and 
Oversight will now come to order.
    Good morning, everyone. Welcome to today's hearing titled, 
``Federally Funded Research: Examining Public Access and 
Scholarly Publication Interests.'' You will find in front of 
you packets containing our witness panel's written testimony, 
their biographies, and Truth-in-Testimony disclosures. I now 
recognize myself for five minutes for an opening statement.
    The formal review and communication of research finding 
dates back several centuries. Over this time, it has certainly 
served society very well. Scholars can argue over whether the 
existing structure, including peer review, is sufficient or if 
more can be done to ensure quality; but one thing is certain--
society has greatly benefited from it.
    This structure and process, however, is organic and ever-
changing. As we progress through the digital age, expectations 
of access to scientific findings are increasing, specifically 
research funded by taxpayers. Just as the Internet has 
challenged entrenched interests in other mediums such as news 
and music, so too has it affected scholarly publishing. The 
academic community and scholarly publishing interests must be 
flexible enough to adapt to our ever-changing times.
    Society's expectations of transparency are clearly 
increasing. Couple this trend with the fact that taxpayers 
rightfully expect access to research that they have funded, and 
you quickly realize that we all must work together to ensure 
that the various interests involved are treated fairly, and 
that ultimately, science and research are not harmed.
    This is no small matter. There are more than 25,000 peer-
reviewed journals produced by over 2,000 publishers. These 
journals publish more than 1.5 million articles a year and earn 
revenues between $8 and $10 billion from their subscribers. 
This revenue funds over 100,000 jobs worldwide and 30,000 jobs 
in the United States alone.
    I have a lot of questions about how we should meet the 
challenges of expanding access to research without compromising 
the quality of the product or the rights of those involved in 
the process.
    The National Institute of Health public access policy 
provides a good opportunity for Congress to review the 
effectiveness of increased transparency on certain fields of 
research, as well as its impact on publishers. We must be 
mindful, however, that what works or does not work for NIH and 
biomedical research may not be appropriate for other agencies 
and scientific fields. Is there a one-size-fits-all policy that 
can cover the entire Federal Government, or do specific 
agencies and disciplines require different approaches? What 
does the taxpayer have a right to access--the manuscript that 
is produced by the researcher or the final product that is 
peer-reviewed? How does copyright law affect each of these? How 
long after release of a paper should the public have access? 
Immediately? Six months? A year? Does this challenge--does this 
change depending on the discipline or the agency? Should all 
information and data associated with the research be made 
public? Is this reasonable or even possible? Should limitations 
be placed on access to prevent misuse? How should that be 
decided or who should decide it? I can go on and on with 
question after question.
    I am also curious about how public access has impacted the 
quality of the research. Has increased access impacted the 
number of citations and references, and is this even a valuable 
metric to determine effectiveness? Has greater access spurred 
additional inquiries or novel research? Has the public access 
affected innovation and commercialization? How do varying 
funding models for peer-review impact how researchers and 
agencies fund research? Are journals capable of adapting to 
meet new challenges presented by the digital age, transparency 
demands, and competitor models?
    As you can see I have lots of questions and I still could 
on, but one thing is absolutely crystal clear. Any effort to 
fundamentally change the way in which federal research is 
reviewed, vetted, transmitted, and communicated should benefit 
from the Science, Space, and Technology Committee's input. We 
have been involved in investigating issues surrounding public 
access for a number of years and are uniquely qualified to 
evaluate the impacts on research, as well as on federal 
agencies.
    Representative Gordon, the former full Committee Chairman, 
brought together a number of stakeholders in 2009 in order to 
find a common ground, and in 2010, the ``Scholarly Publishing 
Roundtable'' issued a report containing several 
recommendations. We also tasked the Office of Science and 
Technology Policy to address the issue in the America COMPETES 
Reauthorization Act of 2010 and expect their results very soon. 
Today's hearing is an extension of this longstanding 
engagement.
    I look forward to working with all of the interested 
parties, and I want to thank our all of our witnesses for 
appearing here today.
    [The prepared statement of Dr. Broun follows:]
         Prepared Statement of Subcommittee Chairman Paul Broun
    The formal review and communication of research findings dates back 
several centuries. Over this time, it has certainly served society 
well. Scholars can argue over whether the existing structure, including 
peer review, is sufficient or if more can be done to ensure quality, 
but one thing is certain, society has greatly benefited from it.
    This structure and process, however, is organic and ever changing. 
As we progress through the digital age, expectations of access to 
scientific findings are increasing, specifically research funded by 
taxpayers. Just as the Internet has challenged entrenched interests in 
other mediums such as news and music, so too has it affected scholarly 
publishing. The academic community and scholarly publishing interests 
must be flexible enough to adapt to our ever-changing times.
    Society's expectations of transparency are clearly increasing. 
Couple this trend with the fact that taxpayers rightfully expect access 
to research they have funded, and you quickly realize that we all must 
work together to ensure that the various interests involved are treated 
fairly, and that ultimately science and research are not harmed.
    This is no small matter. There are more than 25,000 peer-reviewed 
journals, produced by over 2,000 publishers. These journals publish 
more than 1.5 million articles a year, and earn revenues between $8 and 
$10 billion dollars from their subscribers. This revenue funds over 
100,000 jobs worldwide--30,000 in the U.S. alone.
    I have a lot of questions about how we should meet the challenges 
of expanding access to research without compromising the quality of the 
product, or the rights of those involved in the process. The National 
Institute of Health (NIH) public access policy provides a good 
opportunity for Congress to review the effectiveness of increased 
transparency on certain fields of research, as well as its impact on 
publishers. We must be mindful, however, that what works or does not 
work for NIH and biomedical research, may not be appropriate for other 
agencies and scientific fields. Is there a one-size-fits-all policy 
that can cover the entire federal government, or do specific agencies 
and disciplines require different approaches? What does the taxpayer 
have a right to access--the manuscript that is produced by the 
researcher, or the final product that is peer reviewed? How does 
copyright law affect each of these? How long after release of a paper 
should the public have access? Immediately? Six months? A year? Does 
this change depending on the discipline or the agency? Should all 
information and data associated with that research be made public? Is 
this reasonable or even possible? Should limitations be placed on 
access to prevent misuse? How should that be decided, and who should 
decide it?
    I'm also curious about how public access has impacted the quality 
of research. Has increased access impacted the number of citations and 
references, and is this even a valuable metric to determine 
effectiveness? Has greater access spurred additional inquiries or novel 
research? How has public access affected innovation and 
commercialization? How do varying funding models for peer-review impact 
how researchers and agencies fund research? Are journals capable of 
adapting to meet new challenges presented by the digital age, 
transparency demands, and competitor models?
    As you can see I have a lot of questions, but I think one thing is 
clear. Any effort to fundamentally change the way in which federal 
research is reviewed, vetted, transmitted, and communicated should 
benefit from the Science, Space, and Technology Committee's input. We 
have been involved in investigating issues surrounding public access 
for a number of years, and are uniquely qualified to evaluate the 
impacts on research and federal agencies. Rep. Gordon, the former 
Committee Chairman, brought together a number of stakeholders in 2009 
in order to find common ground, and in 2010 the ``Scholarly Publishing 
Roundtable'' issued a report containing several recommendations. We 
also tasked the Office of Science and Technology Policy to address this 
issue in the America COMPETES Reauthorization Act of 2010 and expect 
their results soon. Today's hearing is an extension of this 
longstanding engagement.
    I look forward to working with all of the interested parties, and 
want to thank our witnesses for appearing today.

    Chairman Broun. I now recognize my good friend, the Ranking 
Member from New York, Mr. Tonko, for his opening statement.
    Mr. Tonko, you are recognized for five minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And I want to thank all of our witnesses for coming today 
to testify before our subcommittee. And further, let me thank 
you in advance for your patience. The schedule is going to be a 
little awkward today.
    In 2010, this committee adopted language that set the stage 
for enhancing public access to federally funded research. Since 
that time, two legislative proposals have emerged and have 
received the scientific community's attention. At this point, I 
believe the language this committee included in the 
reauthorization of the America COMPETES Act remains the best 
path forward.
    We have two competing public interests that play in the 
open access discussion. On the one hand, the taxpayers who 
provide support for research through grants provided by federal 
science agencies have an interest in having the research they 
fund deliver maximum public benefit. On the other hand, the 
public is not only interested in quantity; they want quality.
    The scientific publishing enterprise, working with the 
research community, academia, and the government traditionally 
has had an important role in ensuring that quality through the 
management of the peer-review process. We are on the cusp of an 
information revolution. We hear about the impacts of this 
revolution on print media every day. Digital technologies are 
making it easier to produce, distribute, search, access, and 
archive information. Scholars are embracing open-access 
journals for their articles and we have seen a series of 
schools follow the Harvard faculty's model in establishing 
publicly accessible faculty archives of their publications.
    More journals are looking to move to a business model based 
on author charges to remain viable with the move to open 
access. The NIH's policy of making final submitted copies of 
manuscripts that result from NIH-funded research available on 
PubMed within 12 months of publication. Is also driving change 
amongst publishers. The National Science Foundation and the 
Department of Energy, significant funders in all nonmedical 
fields of science are both working on pilot programs that 
embrace an open access policy. With all of these changes 
underway, it is hard to see how traditional publishers will be 
able to survive without significantly rethinking their business 
model. This appears to be true for both the for-profit and not-
for-profit publishers.
    So what is the proper role for the government in this 
evolutionary process? Clearly, we need to ensure that vital 
public interests in the United States research enterprise are 
indeed served. Any new system that emerges needs to facilitate 
data sharing and interoperability across fields and archives. 
In addition, it must provide for the long-term stewardship of 
the scientific record. We need to consider the implications for 
federal grants of moving to new publishing business models, 
including author-paid publication.
    Currently, federal grants help to support journal 
subscriptions through indirect costs on grants. Can we rely on 
the current policy path coupled to changing technology, 
emerging competition, and social norms among scholars to drive 
us steadily toward broader access to research results? It is 
too soon to tell. The landscape is dynamic and federal agencies 
have not yet completed their policy reviews and revisions.
    We are still waiting for the report we requested from OSTP. 
If we proceed to a legislative approach, we may end by creating 
more problems than we indeed solved. An abrupt end to the 
current system could drive some publishers out of existence. It 
could result in the loss of established journals and weaken 
professional scientific societies. These outcomes would be 
counterproductive to the goal of having high-quality research 
widely published and disseminated. How we produce, share, and 
preserve knowledge is on the edge of the greatest change in 
four centuries. There are many new opportunities for 
improvement and this is indeed an exciting time. Transitions 
are always unsettling but they offer a period for constructive 
experimentation.
    I believe we should take the time to hear from all 
interested parties, encourage the federal science agencies to 
move their efforts forward and refrain at this time from 
prejudging the best outcome through prescriptive legislation. 
We want to see the strongest possible system for sharing and 
preserving knowledge emerge from this transition period, and I 
look forward to hearing the perspectives and the concerns of 
our witnesses today and as this process moves forward.
    Thank you very much, Mr. Chair.
    [The prepared statement of Mr. Tonko follows:]
    Prepared Statement of Subcommittee Ranking Member Paual D. Tonko
Thank you, Mr. Chairman.
    I want to thank all of our witnesses for coming today to testify 
before the Subcommittee.
    In 2010, this Committee adopted language that set the stage for 
enhancing public access to Federally-funded research. Since that time, 
two legislative proposals have emerged and have received the scientific 
communities' attention.
    At this point, I believe the language this Committee included in 
the reauthorization of the American Competes Act remains the best path 
forward.
    We have two competing public interests at play in the open access 
discussion.
    On the one hand, the taxpayers who provide support for research 
through grants provided by Federal science agencies have an interest in 
having the research they fund deliver maximum public benefit.
    On the other hand, the public is not only interested in quantity. 
They want quality. The scientific publishing enterprise--working with 
the research community, academia, and the government traditionally has 
had an important role in ensuring that quality-through the management 
of the peer review process.
    We are on the cusp of an information revolution. We hear about the 
impacts of this revolution on print media every day. Digital 
technologies are making it easier to produce, distribute, search, 
access, and archive information.
    Scholars are embracing open access journals for their articles, and 
we have seen a series of schools follow Harvard faculty in establishing 
publically-accessible faculty archives of their publications.
    More journals are looking to move to a business model based on 
author charges to remain viable with the move to open access. NIH's 
policy of making final submitted copies of manuscripts that result from 
NIH-funded research available on PubMed within 12 months of publication 
is also driving change among publishers.
    The National Science Foundation and the Department of Energy--
significant funders in all non-medical fields of science-are both 
working on pilot programs that embrace an open access policy.
    With all these changes underway, it is hard to see how traditional 
publishers will be able to survive without significantly re-thinking 
their business model. This appears to be true for both for-profit and 
not-for-profit publishers.
    So, what is the proper role for the government in this evolutionary 
process? Clearly, we need to ensure that the vital public interests in 
the U.S. research enterprise are served.
    Any new system that emerges needs to facilitate data sharing and 
interoperability across fields and archives. In addition, it must 
provide for the long-term stewardship of the scientific record.
    We need to consider the implications for federal grants of moving 
to new publishing business models including author-paid publication. 
Currently, federal grants help to support journal subscriptions through 
indirect costs on grants.
    Can we rely on the current policy path, coupled to changing 
technology, emerging competition, and social norms among scholars to 
drive us steadily toward broader access to research results?
    It is too soon to tell. The landscape is dynamic and Federal 
agencies have not yet completed their policy reviews and revisions. We 
are still waiting for the report we requested from OSTP.
    If we proceed to a legislative approach, we may end by creating 
more problems than we solve. An abrupt end to the current system could 
drive some publishers out of existence. It could result in the loss of 
established journals and weaken professional scientific societies. 
These outcomes would be counterproductive to the goal of having high 
quality research widely published and disseminated.
    How we produce, share, and preserve knowledge is on the edge of the 
greatest change in four centuries. There are many new opportunities for 
improvement and this is an exciting time. Transitions are always 
unsettling, but they offer a period for constructive experimentation.
    I believe we should take the time to hear from all interested 
parties, encourage the Federal science agencies to move their efforts 
forward, and refrain at this time from prejudging the best outcome 
through prescriptive legislation.
    We want to see the strongest possible system for sharing and 
preserving knowledge emerge from this transition period. I look forward 
to hearing the perspectives and concerns of our witnesses today and as 
this process moves forward.

    Chairman Broun. Thank you, Mr. Tonko.
    If there are any other Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    Chairman Broun. At this time, I would like to introduce our 
panel of witnesses--Dr. H. Frederick Dylla, the Executive 
Director and CEO of the American Institute of Physics; Mr. 
Elliot Maxwell, Project Director for the Digital Connections 
Council on the Committee on Economic Development. Boy, that is 
a mouthful. Dr. Crispin Taylor, the Executive Director of the 
American Society of Plant Biologists; Mr. Stuart Shieber, the 
Director of the Office for Scholarly Communication at Harvard 
University; and Mr. Scott Plutchak, the Director of Lister Hill 
Library at the University of Alabama in Birmingham.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the members of the committee 
will be--will have five minutes each to ask questions. Your 
written testimony will be included in the record of the 
hearing.
    It is the practice of this Subcommittee on Investigations 
and Oversight to receive testimony under oath. Do any of you 
have an objection to taking an oath? Okay. I see everybody's 
head shake side-to-side indicating ``no.'' So let the record 
reflect that all witnesses are willing to take oath.
    You may be represented by counsel. Do any of you have 
counsel here today? Also everyone indicated that they do not 
have counsel, so let the record reflect as such.
    If all of you would now please stand and raise your right 
hand. Do you solemnly swear or affirm and tell the whole truth 
and nothing but the truth, so help you, God?
    Thank you. You may be seated.
    Let the record reflect that all the witnesses participating 
have taken the oath.
    Now, I recognize our first witness, Dr. Dylla.

                STATEMENT OF H. FREDERICK DYLLA,

                     EXECUTIVE DIRECTOR AND

                    CHIEF EXECUTIVE OFFICER,

                 AMERICAN INSTITUTE OF PHYSICS

    Dr. Dylla. Chairman Broun, Ranking Member Tonko, and 
members of the committee, good morning. I am Fred Dylla, the 
Executive Director and CEO of the American Institute of 
Physics. AIP is a not-for-profit publisher of scholarly 
research and an umbrella organization of over ten scientific 
societies that includes over 135,000 scientists. Before taking 
on this job five years ago, I was a practicing physicist, so I 
am keenly aware that innovation and discovery depend on access 
to research.
    Today's hearing is addressing the essential question of the 
appropriate role of government in facilitating public access to 
taxpayer-funded research. Recently, there has been intense 
debate over public access, which is the ability for anyone to 
readily access scholarly research. All parties in this debate 
agree that enhanced public access is a good thing, is good for 
the economy; it is good for science.
    My main message to you today is that the current system of 
scholarly communications is working. More journals are reaching 
more readers in more usable formats than ever before. 
Stakeholders have been able to make significant strides toward 
increasing access even while recognizing there are no quick 
fixes where one size fits all models.
    As the public demand for free electronic information grows, 
however, the debate on how to pursue public access has 
intensified. Financial concerns lie at the heart of this issue. 
The argument is if the taxpayers fund the research, shouldn't 
the public have access to it? And the answer is of course. But 
in the world of scholarly publishing, freely available does not 
necessarily mean free of cost. It takes significant investments 
for publishers to give value to that research and communicate 
it in a meaningful way.
    For AIP this amounts to about $2,000 per article, which 
includes the rigorous peer-review process that we manage, the 
editing, the production, permanently archiving, and much more. 
All the parties agree that these components add essential value 
and enable scientific progress. This committee has weighed in 
on this issue and your solution is working. Last year, 
legislation was enacted, Section 103 of the COMPETES Act, that 
calls for all stakeholders, including publishers, to work 
together to increase public access to scholarly publications, 
grantee reports and associated data.
    Since that time, important collaborations have formed and 
we have made significant progress. Partnerships with the 
National Science Foundation and the Department of Energy have 
produced pilot programs that link grantee reports to 
publications, support data mining across agency and publisher 
platforms, and provide new tools and methodology for 
identifying publicly funded work. Publishers have the expertise 
to drive these projects, saving the funding agencies money. 
Innovative publication technology, efficient business 
practices, and connectivity to the international publishing 
community enable the government to show results quickly, 
increasing taxpayer access to publicly funded work.
    Due to the complex and nuanced nature of this issue, 
proposals that significantly distort the current system of 
scholarly communications could even be harmful. Recently, the 
two most touted models--one-size-fits-all and mandated open 
access--divert the progress that has been made over the past 
few years and could even jeopardize the ultimate goal of 
enhanced public access.
    How are these proposals harmful? First, a single business 
model that mandates free public access does not take into 
account the rich diversity in both the science and scientific 
publishing. A successful approach in one scientific discipline 
may unfairly hinder another. This could jeopardize many sectors 
of the $3 billion-a-year component of the U.S. publishing 
industry, which employs 30,000 people in this country. But 
secondly, a blanket approach that imposes open access in all 
journals would significantly impede our approach and other 
publishers' abilities to ensure quality and the value of 
published scholarly research.
    Fortunately, the current system is working. The natural 
pressures of the marketplace continue to foster innovative 
products and dissemination methods. Within the scholarly 
publishing realm, new publishers, new journals, new business 
models are continually emerging signaling a healthy, 
competitive marketplace. These innovations date back to our 
Nation's birth with Ben Franklin--a scientist, a publisher, an 
entrepreneur who exemplifies our country's tradition of 
scholarly publishing and free enterprise. Today, the government 
has given us the tools to continue this tradition so we can 
pursue innovation and foster scientific discovery.
    Within the current framework, I am confident that public 
access to all the results of scientific research will continue 
to flourish and grow.
    Thank you. I am honored to be among such a distinguished 
committee and panel of witnesses.
    [The prepared statement of Mr. Dylla follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Dr. Dylla.
    Mr. Maxwell, you are recognized for five minutes.

              STATEMENT OF MR. ELLIOT E. MAXWELL,

         PROJECT DIRECTOR, DIGITAL CONNECTIONS COUNCIL,

               COMMITTEE ON ECONOMIC DEVELOPMENT

    Mr. Maxwell. Thank you, Mr. Chairman, Ranking Member Tonko, 
Members of the Subcommittee. First, let me express my 
appreciation for the opportunity to testify today. My testimony 
today is based on a report, ``The Future of Taxpayer Funded 
Research: Who Will Control Access to the Results?'' which I 
wrote under the auspices of the Committee for Economic 
Development with generous support from the Ewing Marion 
Kauffman Foundation. That report addresses the cost and 
benefits of the public access policies of the National 
Institutes of Health, as well as proposals to overturn or 
extend that policy. I would ask that a copy of the report be 
inserted into the record.
    Chairman Broun. Certainly. Thank you. So ordered.
    [Visit http://www.emaxwell.net/linked/DCCReport--Final--
Feb2012.pdf to view the report.]
    Mr. Maxwell. For the last several years, I have served as 
Project Director of CED's Digital Connections Council, and 
during this time, the Council has made several reports on how 
greater openness is enabled by the Internet and by the 
digitization of information. This kind of openness is in fact 
exemplified by the NIH public access policy. It makes it 
possible and it benefits from the availability of the articles 
that are made available.
    The policy has been in effect for nearly four years, but 
there are disagreements about its effect. Supporters have 
argued that it increased public access, substantial positive 
impacts on the progress of science, innovation, and economic 
growth and should be extended. Opponents are primarily, but not 
entirely, publishers of proprietary journals. And I want to 
make sure that people understand that there are publishers that 
are not proprietary but are open-access publishers. And so when 
people talk about publishers as if they were a single body, it 
is not an accurate way of depicting what the situation is.
    Primarily, publishers of proprietary journals have argued 
that increased public access will or have damaged the 
subscription-supported publishing business and will undercut 
peer review and may force journals to close or reduce the 
number of outlets. CED initiated this report because we wanted 
to try to get what the facts were, what the effects were, and 
rather than speculate about these things, to look at what is on 
the record after four years. And we think we have a kind of 
disinterested view of this because we are not in favor of one 
or another kind of dissemination. But the central question of 
the report was, how does the NIH policy and proposals to extend 
it or to overturn it affect the production and dissemination of 
high-quality science research. That seems to be the single most 
important thing to remember, that it is about the progress of 
science, innovation, and economic growth. It is not about the 
effect on any particular mode of dissemination. And so we 
wanted to look at it from that standpoint.
    Now, we were concerned about the effects on different ways 
of disseminating research because only to the extent that they 
affect the production and dissemination of high-quality 
research. And quality, as Mr.--as the Chairman and Ranking 
Member have indicated, is an important issue but it is not 
necessarily equated with proprietary publishing. It is related 
to peer review and the different means of assuring quality. And 
we want to underline that.
    It is worth noting, as Fred has said, that all the parties 
agree about the importance of access. Proprietary publishers 
make a point in their arguments about their efforts to increase 
access to groups that are underserved. I would suggest that the 
question in some ways needs to be flipped around. What all 
parties also agree is that the NIH policy for public access has 
increased access. There is no dispute about that. So the 
question you face, I think, is to say we have a means and we 
know how to use it of increasing access. The issue now should 
be what do we need to do to limit that as opposed to how do we 
extend what we have now in the scholarly publishing journal to 
other federal agencies? Because we have both the means and the 
knowledge of how to increase access and we should start there 
and back off from that as opposed to saying how do we tweak 
what we have in those areas beyond the NIH?
    So it is not, I think, a matter of dispute about the value 
of access or a matter of dispute about the success of NIH. It 
is really only about, I think, the details of how it might be 
worked out in other areas. But we start with the presumption of 
access as opposed to the presumption that the publishers 
control access. And because we have a time of an extraordinary 
pressure on our budgets, we need to be thinking about how to 
get the most from the very large scientific investment by 
taxpayers in support of research.
    What we have found in looking at the literature was that 
increased public access accelerates progress in science by 
speeding up and broadening diffusion of knowledge, providing 
better access to more people--because as more people have 
access, more people can do something with it--increases the 
range and quality and variation of experiments that lead to 
better solutions. The more people have access, the different 
perspectives they bring more likely to have solutions than to 
narrow that. We have found that it has important benefits to 
authors because their work is more available and it increases 
the efficiency of the research enterprise because you can see 
what is being done and you can get as much as you can without 
making taxpayers pay twice for the research both in terms of 
the grants and in terms of subscriptions.
    We have looked at all of the evidence that we have about 
the impact on the scholarly publishing community and we found 
no evidence that public access as provided by the NIH policy 
has harmed the subscription journals. We found no persuasive 
evidence that increased public access threatens the ability to 
peer review. We found no persuasive evidence of a significant 
reduction in traditional publishing. We found only a small 
effect on the rate of growth of profits on the proprietary 
publishers, and that was in the midst of the largest recession 
we have had in years and years and years. None of even the----
    Chairman Broun. Mr. Maxwell, if you would go ahead. You are 
a little over time now and we are----
    Mr. Maxwell. I am sorry.
    Chairman Broun. --pressed for our time because we are going 
to have votes very quickly and I just want to try to get 
through as much of this testimony. So if you would summarize 
very quickly, I would appreciate it.
    Mr. Maxwell. Absolutely. I think that we should recognize 
the very large benefits that exist and start from the premise 
of increasing access, and then, if necessary, dial that back. 
And we should think of the experience that people have had in 
the NIH and related biomedical world and start to move down to 
a shorter embargo, recognizing that there may be differences 
amongst the various disciplines.
    [The prepared statement of Mr. Maxwell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Mr. Maxwell.
    Dr. Taylor, you are recognized for five minutes. And please 
if you could keep it within five minutes. Your whole written 
testimony will be part of the record. Thank you.

                STATEMENT OF DR. CRISPIN TAYLOR,

                      EXECUTIVE DIRECTOR,

              AMERICAN SOCIETY OF PLANT BIOLOGISTS

    Dr. Taylor. Thank you very much, Chairman Broun, Ranking 
Member Tonko, and members of the subcommittee. I am very 
grateful for the opportunity to come testify today. My name is 
Crispin Taylor and my title is Executive Director of the 
American Society of Plant Biologists, a 5,000-member 
professional society that is based just up the road in 
Rockville, Maryland. I am also a former Chair of the North 
American chapter of an organization called the Association of 
Learned and Professional Society Publishers, which goes by the 
acronym ALPSP. ALPSP is a global trade association whose 
membership primarily comprises university presses and 
professional society publishers. Most of ALPSP's organizational 
members, including the one I direct, publish one or at most a 
handful of journals. These journals tend to be among the most 
highly regarded in their respective disciplines.
    It is these two top-ranked journals called ``Plant 
Physiology'' and ``The Plant Cell,'' are integrally involved in 
developing, validating, communicating, disseminating, and 
ultimately advancing fundamental knowledge about plant biology. 
This is what the journals and indeed the society are all about. 
To publish these two journals, the society expends millions of 
dollars annually on peer review, editorial management, 
production, printing, shipping, and hosting the online version 
of the journals on a fully digital, highly reliable platform.
    In your invitation, you asked me about the degree to which 
each of these journals are dependent upon subscriptions. More 
than half of the Society's $6 million in annual operating 
revenues derives from subscription payments from some 2,000 
institutions worldwide. Despite our strenuous efforts and the 
fact that we price our two-journal package extremely 
competitively, we are already finding it increasingly 
challenging to maintain this customer base.
    Your invitation also asked me how scholarly societies might 
be affected by public access policies promulgated by the 
government. Well, frankly, that depends on the policies. For 
example, the policy that mandates a one-size-fits-all embargo 
period, especially one as short as 6 months, is in my opinion 
likely to have profoundly negative impacts, especially for 
smaller professional societies like ASPB. This is not only an 
assertion. We know from the usage data for ``Plant Physiology'' 
that more than half of the article downloads and thus arguably 
half of the value of the journal to the subscriber take place 
after the first 6 months. Moreover, librarians have told us in 
informal conversations that they would be inclined to cancel 
their subscriptions and wait for release of content at 6 months 
if that is what it came to.
    And that is just ASPB. ALPSP's members publish journals 
across a wide range of scholarly disciplines, including math, 
the social sciences, and humanities. For journals in these and 
other areas of scholarship, half-lives for article downloads 
are typically longer than one year, and so I would expect the 
impacts of even a 12-month mandated embargo to be even more 
detrimental in those fields.
    Although my concerns regarding the adverse impact of 
mandated embargos are serious, I expect it may take a while for 
this scenario to play out in the form of failed journals or 
shuttered Societies. I have two more pressing worries regarding 
mandated embargos. First, the subscription revenues shrink. The 
capacity for smaller publishers like ASPB to innovate will be 
closed off. We will be unable to further improve the utility 
and impact of our journals, and we will not have time to launch 
and monetize new products and services like the mobile app on 
my cell phone through which I can access content for ``Plant 
Phys'' and ``Plant Cell.'' Both new services will allow us to 
diversify our revenue streams and move away from the current 
business model.
    Second, if those mandates come with an obligation to 
deposit articles in a centrally operated government repository 
such as the PubMed Central one we have heard about, then for 
many journals, downloads from those repositories will cut into 
usage by our own journal websites, further lowering the value 
of our journals to the subscribers.
    So much for policies and regulations that would be harmful. 
As my testimony indicates, I do think that governments have a 
legitimate interest in scholarly communication, but I think 
that interest would be most effectively expressed by 
encouraging continued innovation rather than stifling it. As we 
have heard, this approach is already articulated in Section 103 
of the COMPETES Act, which envisions collaborative and 
cooperative engagement of all stakeholders.
    Among other things, helpful policies will encourage the 
continued development and adoption of industry-wide standards, 
building off the early implementation by almost the entire 
scholarly communication ecosystem is something called the 
Digital Object Identifier, or DOI, as a form of Social Security 
number if you like for journal articles and other pieces of 
information online. Such standards allow for evermore robust 
and useful interoperability of otherwise disparate information.
    To avoid the distribution of incomplete or imperfect 
versions of articles, policies and practices should also aim 
toward providing access to the definitive version of an 
article, the so-called version of record. It is this version 
typically available on a publisher website that is actively 
stewarded and preserved for posterity and to which any 
corrections or amendments are immediately linked.
    In concluding, you asked me whether there is common ground 
to be found. Despite the differences of opinion and 
perspectives you have already heard and that we will doubtless 
explore in greater detail in the coming couple of hours, my 
answer is a resounding yes. The process begun by the scholarly 
publishing roundtable was brought together by publishers, 
librarians, and university leaders is already playing out via 
the America COMPETES Act and the establishment of collaborative 
public-private projects and partnerships demonstrating that we 
will make much more progress together as a community of 
stakeholders than we would in isolation.
    Thank you very much.
    [The prepared statement of Dr. Taylor follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Dr. Taylor. You were just dead-
on. Those buzzes that you just heard indicates that we have a 
vote on the Floor. If the two of you can be very quick and get 
through exactly five minutes each, we can get through both of 
you all and we will recess and come back. So I would like to 
try to do that if you all could please hold your comments to 
five minutes or if you could cut it 30 seconds or so short. I 
don't want to shortchange anybody, Mr. Maxwell, or anybody but 
Mr. Shieber, you are recognized for five minutes.

              STATEMENT OF MR. STUART M. SHIEBER,

         DIRECTOR, OFFICE FOR SCHOLARLY COMMUNICATIONS,

                       HARVARD UNIVERSITY

    Mr. Shieber. Okay. Thank you, Chairman Broun, Ranking 
Member Tonko, members of the committee. My name is Stuart 
Shieber. I am a Computer Science Professor at Harvard 
University. As a faculty member, I led the development of 
Harvard's Open Access Policies, and since 2008, I have also 
served as the Faculty Director of Harvard's Office for 
Scholarly Communication. I want to thank you for the 
opportunity to speak with you today.
    Harvard's longstanding research policy calls for the idea 
that we as--calls for the ideas that we as faculty and 
researchers produce to receive ``the widest possible 
dissemination.'' At one time, this was achieved by distributing 
scholarly articles in the form of printed issues of journals 
sent to the research libraries of the world for reading by 
their patrons and paid for by subscription fees. But internet-
era technologies hold the promise of transforming this system, 
distributing and using knowledge in ways not previously 
imaginable. Ideally, this would lead to a universality of 
access to research results known as open access, truly 
achieving the widest possible dissemination of our research.
    The benefits of open access are many. It eliminates 
barriers to reading scholarly literature and broadens access 
beyond just those who, like myself, are privileged to be within 
the orbit of a major research library. It expands access to 
those at the full range of schools, businesses large and small, 
and the general public. Open access makes practical the novel 
reuse of the literature through computer analysis of the entire 
corpus of research results. Economists have shown that broader 
public access to federally funded research would have positive 
impacts on the U.S. economy totaling billions of dollars, 
covering its cost many times over. But perhaps most 
importantly, open access to research is an intrinsic public 
good. As Thomas Jefferson wrote, ``the most important bill in 
our whole code is that for the diffusion of knowledge among the 
people.''
    Unfortunately, this promise is not currently being realized 
because of systemic problems in scholarly publishing. Libraries 
have observed with alarm a long-term dramatic hyperinflation in 
subscription costs of journals which have increased at a steady 
rate of about seven percent per year. Other symptoms of 
dysfunction include huge price disparities among journals of 
similar quality and extraordinary profit margins. Even at 
Harvard, which holds the largest academic library in the world, 
we have had to curtail serial spending through a painful series 
of journal cancellations.
    In 2008, the faculty of arts and sciences, my own faculty, 
enacted by unanimous vote an open-access policy. Faculty 
decided to grant a license to the university to openly 
distribute our scholarly articles and commit to providing 
copies of our manuscript articles for distribution through our 
online repository. This policy allows faculty to retain 
sufficient rights to provide open supplemental access to our 
scholarly articles. Since then, similar policies have been 
voted by faculty bodies across Harvard, as well as institutions 
as diverse as MIT, University of Kansas, Stanford, Princeton, 
Bucknell, Columbia, Oberlin, Duke, and many others. Because of 
the Harvard policies, we now provide online access to over 
7,000 articles, representing 4,000 Harvard-affiliated authors. 
These articles have been downloaded almost three-quarters of a 
million times to people on every continent in the world, 
including, surprisingly, Antarctica.
    This approach to the access problem is also seen in the 
extraordinarily successful public access policy of the National 
Institutes of Health. Today, NIH provides free online access to 
2.4 million articles downloaded a million times per day by half 
a million individual users. These users come from universities, 
research labs, companies, and the general public showing the 
broad scope of the latent demand for these materials. The NIH 
model could be replicated at other funded agencies as 
envisioned in the recently reintroduced bipartisan Federal 
Research Public Access Act.
    The standard objection to this kind of policy is that 
supplemental open access could harm the publishing industry, 
but as Mr. Maxwell's report for the CED concluded, after four 
years of the NIH policy and institutional policies like 
Harvard's, ``there is no persuasive evidence that increased 
access threatens the sustainability of traditional 
subscription-supported journals or their ability to fund 
rigorous peer review.''
    In addition, the author gains value from publication of an 
article in a journal. Vetting, copyediting, typesetting, and 
most importantly, imprimatur of the journal, value that authors 
and their institutions and funders should be, would be, and are 
willing to pay for. Thus, in a hypothetical world of harm to 
subscriptions, journals can switch to a different revenue model 
charging a one-time publication fee to cover the costs of 
publishing the article. I state this as though the publication 
fee revenue model is itself hypothetical, but it is not. Peer-
reviewed open-access journals already exist in the thousands, 
many using the publication fee revenue model, which by now is a 
proven mechanism used by commercial and nonprofit publishers 
alike, including even the most established journal publishers.
    I opened my statement by quoting a mission of academics 
such as myself to provide the widest possible dissemination--
open access--to the ideas and knowledge resulting from our 
research. Government, too, has an interest in the widest 
possible dissemination of government-funded research--to 
maximize the return on the taxpayers' enormous investment in 
that research, to bring economic benefits that far exceed the 
costs, to provide transparency, to inform the public. Providing 
open access to the publicly funded research literature, 
fulfilling Jefferson's call for diffusion of knowledge, will 
benefit researchers, taxpayers, and every person who gains from 
new technologies, new medicines, new jobs, and new solutions to 
longstanding problems of every kind.
    Thank you.
    [The prepared statement of Mr. Shieber follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Mr. Shieber.
    Mr. Plutchak, you are recognized for five minutes.

                STATEMENT OF MR. SCOTT PLUTCHAK,

                 DIRECTOR, LISTER HILL LIBRARY,

              UNIVERSITY OF ALABAMA AT BIRMINGHAM

    Mr. Plutchak. Mr. Chairman, members of the subcommittee, 
thank you very much for the opportunity to speak to you today. 
My name is Scott Plutchak, and I am the Director of the Lister 
Hill Library in the Health Sciences at the University of 
Alabama at Birmingham.
    For over a decade, much of my professional activity has 
taken place at the intersection of librarianship and 
publishing. Despite how dependent these two communities are on 
each other, it is striking how little real conversation and 
collaboration has taken place. One of the unfortunately results 
of this is that the debates over access to the peer-reviewed 
literature have been unnecessarily contentious and have 
diverted energy and attention from what could have been and 
should have been a careful examination of facts and 
opportunities.
    Open-access advocates are lobbying hard for passage of 
FRPAA, the Federal Research Public Access Act, but I am afraid 
they are being shortsighted. The true value of the peer-
reviewed literature comes from context when it is connected to 
the work that comes before it and that provides a foundation 
for what can be built upon it. Because FRPAA focuses so much on 
access to individual copies of articles, it falls far short of 
what could be and what needs to be achieved. I agree that the 
peer-reviewed reports of federally funded research should be 
made freely available. In the digital world, we certainly ought 
to be able to make that happen, but it must be done within a 
context that maximizes the value of those articles. Mere access 
isn't enough.
    The report from the Scholarly Publishing Roundtable lays 
out the issues that need to be balanced--first, a focus on 
providing access to the version of record. Like the NIH policy 
on which it is based, FRPAA settles for access to the author's 
final manuscript version. In most cases, to meet a current 
need, that may be sufficient, but a robust system of scientific 
communication that is expected to persist over time requires 
access to the version that some entity is going to keep track 
of, ensuring that corrections are appropriately made, that 
retractions are handled when necessary, and that context is 
preserved.
    Second--interoperability standards. Data mining of research 
reports can combine results to provide accurate summaries 
across a broad range of experiments. When these meta-analyses 
are performed by humans, they can be extremely beneficial but 
they are very expensive and they take a lot of time. In order 
to facilitate this data mining, we need to emphasize a 
standardized structure for research reports.
    Third--a focus on digital preservation. Although there are 
several promising approaches underway, these are all still in 
the experimental stages. A recent study reported that only 15 
to 20 percent of the e-journal content in two major research 
libraries was currently being preserved. Any set of policies 
designed to provide access to the results of funded research 
must take into account methods for maintaining access for 
decades and even centuries.
    Finally, a recognition that different disciplines have 
different practices and needs. One of the most contentious 
areas in the public access debates has to do with the length of 
the embargo. It became clear to us on the Roundtable as we 
investigated the differences among disciplines that 6 months 
may be longer than necessary in some disciplines and too short 
to be practical in others. While policy development across 
funding agencies must be carefully coordinated, some 
flexibility must be allowed and even encouraged so that 
agencies can develop policies that are acutely attuned to the 
needs of their disciplinary communities.
    Librarians, researchers, educators, and publishers are all 
committed to achieving the widest possible distribution of the 
results of scholarly research. The challenge is to do that in 
ways that balance these elements. My experience with the 
Roundtable, my other work with the librarian and publishing 
communities over the years leaves me convinced that we will be 
more effective in developing those solutions when researchers, 
educators, publishers, librarians, and the public work together 
than if we continue on a path that sets us at odds with each 
other.
    Across the publishing industry in both commercial and not-
for-profit sectors, experiments in open-access publishing are 
proliferating. It should be clear to any objective observer 
that most publishers are in no way opposed to open access. They 
are quite sensibly seeking to develop business models that keep 
their organizations healthy while maximizing access to what 
they publish.
    As authorized by the America COMPETES Act, the White House 
Office of Science and Technology Policy is currently reviewing 
the results from its latest request for information. Their 
approach to these questions suggest that they are attempting to 
achieve the kind of balance recommended in the report. Anything 
that the Congress can do to encourage policy development along 
those lines will be welcome. Anything that impedes or 
interferes with that work such as the passage of FRPAA-type 
legislation will paradoxically make the goal of a truly robust 
open-access infrastructure for scientific communication even 
more difficult to achieve.
    Developing federal policies that will maximize the public's 
investment in research and provide incentives for the 
development of a robust scholarly communication system is 
complicated and achieving the appropriate balance of interests 
may not be as emotionally satisfying as advocating the 
simplicity of something like FRPAA but the American public 
deserves to have us do this right.
    Thank you very much.
    [The prepared statement of Mr. Plutchak follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Broun. Thank you, Mr. Plutchak. The Chairman will 
now take a unanimous consent request.
    Ms. Lofgren. Thank you, Mr. Chairman. I would ask unanimous 
consent to insert in the record a letter I have received on 
this subject from 52 Nobel Prize winners in favor of open 
access.
    Chairman Broun. Hearing no objection, so ordered.
    [The information appears in Appendix II.]
    Chairman Broun. The--we will recess this hearing. We have 
to go vote. We will be back--bring this back into order 10 
minutes after the beginning of the last vote.
    [Recess.]
    Chairman Broun. I call the Committee back to order.
    I thank the panel for your testimony, appreciate you all 
getting through it and I apologize for rushing all of you. But 
we are going to have five series of vote today so it is going 
to be--hopefully, we can get through at least one round of 
questions before the next vote series but we will see.
    So if you would please, Members as well as respondents to 
the questions, please try to make them as quick as possible so 
we can get through as many questions as we possibly can. And I 
will remind you that each member has only five minutes.
    And at this point, I will open the round of questions by 
recognizing myself for five minutes.
    A question to all of you: is there one-size-fits-all policy 
that can cover the entire Federal Government or do specific 
agencies and disciplines require different approaches? I know 
Mr. Shieber has already--I think it was Mr. Shieber or Mr. 
Plutchak already dealt with that so let me hear from others and 
we will hear from all you all real quick. One size fits all, is 
that appropriate? Dr. Dylla?
    Dr. Dylla. Chairman Broun, in an answer--simple answer, no. 
If you look at all the scholarship, it is a very diverse array 
of activities. And if you look at one of the things we have 
focused on in our testimony and your comments, it is this open-
access model where the author pays the full costs of a 
publisher providing its added value. That works very well for a 
well funded field that has lots of federal funding. I think it 
appears to work well for medicine. It probably works well for 
some disciplines like physics and chemistry, parts of it. But 
for mathematics and social sciences there is very little grant 
structure out there. It would be very difficult for that 
particular one size to fit all.
    Chairman Broun. Mr. Maxwell?
    Mr. Maxwell. There is one aspect of one-size-fits-all that 
I think in fact is true across the fields and that is that 
increased public access has substantial public benefit. And 
that is why I would like to stress the notion of starting with 
that and if necessary tweaking that. As to Fred's comment, 
the--what you see in the publishing world are lots of different 
models and the models have been changing. We are seeing lots of 
proprietary journals having--becoming hybrids, having some part 
of open access. You see a remarkable growth of open-access 
journals, 7,500 over the last decade.
    If the--if we start with the notion of increasing public 
access and that that is a benefit and then if you want to 
ratchet back and say this might not work in this particular 
environment, one way of doing it--and we didn't study this in 
the report but one way of thinking about it is to say we will 
have a 6-month embargo across all federal funding but we will 
wait for a year and each of the departments can have a 
proceeding in that year that would say with respect to our 
granting, here is what would be the optimum solution. Here is 
what fits us. But without a kind of pressure from legislation, 
this can go on and on and on when the benefits that we lose 
every day from reduced public access are meaningful. They are 
meaningful for the progress of science, they are meaningful for 
innovation, they are meaningful for the benefits for the 
society.
    Chairman Broun. Dr. Taylor?
    Dr. Taylor. Thank you, Mr. Chairman. With all due respect, 
I might question the premise of the question. I don't think 
mandates are required at all. So whether a one-size-fits-all 
mandate is okay or not is perhaps not the right question. So, 
for example, as to these journals made freely available by our 
choice 12 months after publication, we have decided in our 
little niche in our business structure that this is an okay way 
to provide public access to the literature that we publish. We 
have done that on our own without anybody telling us to do 
that. And that is true for many other publishers in a number of 
disciplines.
    Chairman Broun. Anybody else? Mr. Shieber?
    Mr. Shieber. I was just going to mention in terms--one of 
the main areas in which people object to a one-size-fits-all 
solution is in the area of the length of embargos. And it may 
well be that different fields would like different embargo 
lengths, but the issue is not that. The issue is what is the 
embargo length that allows the maximum access while maintaining 
viability of the publishing system overall? As far as we know, 
there is no evidence that--certainly NIH embargo length of 12 
months is problematic and of all biomedical funders, NIH seems 
to be an outlier in their embargo length, most requiring a 6-
month embargo. So I think the burden of proof would be on 
finding evidence that a longer embargo would be needed rather 
than starting with a long embargo and shortening.
    Chairman Broun. Thank you, Mr. Shieber.
    Mr. Plutchak, you want to----
    Mr. Plutchak. I think I have answered that in my testimony.
    Chairman Broun. Okay. I thought you did.
    And my time is expired. I now recognize Mr. Tonko for five 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Plutchak rightly said that the question we ought to be 
asking is how do we take advantage of digital technologies to 
develop a robust and innovative scientific communication 
infrastructure that would then fully take advantage of the 
potential of our 21st century digital technologies. Much of the 
innovation in publishing and access is happening organically as 
we move further into the digital age. Some of this was pushed a 
little faster by the 2008 NIH policy and then the 2010 COMPETES 
language, but all of these efforts and the tone of the debate 
have come a long way since FRPAA was first introduced in 2006.
    So let me ask each of our panelists the following: are 
there downsides to giving markets and technology time to work 
their magic, especially in the light of the immense amount of 
activity already going on and the COMPETES-driven agency 
efforts? Mr. Plutchak, maybe we will start with you, please?
    Mr. Plutchak. Yeah, there is a downside in the sense that I 
think Mr. Maxwell has addressed, the benefits of making things 
open quickly, but I always look at these things as a need to 
balance upsides and downsides. Everything has downsides. And my 
concern is that by focusing so much on the upside of making 
openness achievable quickly, we don't pay enough attention to 
the factors of interoperability, of preservation, the other 
things that are managed that have to be balanced. And I think 
overall, those--the downside of potential delay is worth taking 
that time to make sure that we are developing policies that are 
really effective for the long-term.
    Mr. Tonko. Mr. Shieber?
    Mr. Shieber. Yes, I am definitely a proponent of letting 
markets work their magic and for that reason I think it 
behooves us to make sure that the scholarly communication 
mechanism that we have is based on a well functioning market. 
Unfortunately, the reader-side payment, the subscription 
revenue model has economic properties that lead to market 
dysfunction and they are very clearly displayed. One nice thing 
about the writer-side or author-side payment model, publication 
fee revenue model, is that it doesn't have those same market 
dysfunctions. So ideally, we would be moving in the direction 
of open-access journals based on author-side fees.
    And to say a word about why that is, from the point of view 
of a reader, two journals are complements of each other. You 
would like both. You want access to both. In fact, access to 
one provides motivation to get access to the other because they 
cite each other. From the point of view of a writer, two 
journals are substitutes and therefore compete with each other. 
So you have a competitive market on the writer side, a 
monopolistic market on the reader side. So we should be moving 
towards the writer side in general, that is in the direction of 
open-access journals.
    Mr. Tonko. Okay. Thank you. Dr. Taylor?
    Dr. Taylor. Thank you, Ranking Member Tonko. I think that, 
as Scott said, there are downsides to everything and I would 
agree with his assessment that in this instance the downside to 
letting the organic growth with some impaling inputs proceed is 
the right way forward. I think there is also an important 
distinction between access for the public and access for 
scholarships. So we can measure access. And as Mr. Maxwell 
said, the NIH policy is allowing a lot more people to access 
the content that is available through PubMed Central. But the 
evidence that I am aware of that scholars are using that 
content anymore than they were already using journal content 
available through other means is just not there in terms of 
citations to the articles that are made available. So I don't 
think that is not much in the way of downside and I think we 
should wait.
    Mr. Tonko. Okay, thank you. And Mr. Maxwell?
    Mr. Maxwell. Yes, thanks for the opportunity. Just three 
points--one is there are very good economic indicators and 
research showing that access does in fact lead to more people 
reading them, more diverse forms of experimentation, more 
innovation. And from the MIT economists who do this study, the 
answer is clear not only in terms of other people's citations 
but faster commercialization of the research.
    The second point is that I do believe in markets, and the 
change in the markets as a result of the NIH policy have meant 
a growth of companies that are taking the PubMed Central 
information and turning it into useful products that were not 
available before for scholars, not for the general public. So 
it goes beyond not only benefits to the general public but the 
benefits of the scholars.
    The third part is if you start from the premise as I do 
that the taxpayer funded this research and we want to get as 
much return from this research as we can, I would say you make 
this available by legislation and you let markets work as they 
are working now and as people are changing their models to 
adjust for that. But they--it is--the debate is not about 
this--the health or wellness of the proprietary publishing 
industry; it is about how to get the dissemination of 
government-funded research out to as many people so we can get 
as much innovation and as much commercialization as we can do 
it.
    Mr. Tonko. Thank you. And Dr. Dylla I will get to you in 
the next round.
    Chairman Broun. The gentleman's time has expired. I am 
sorry about that, Mr. Tonko.
    Ms. Lofgren, you are recognized for five minutes.
    Ms. Lofgren. Well, thank you very much, Mr. Chairman. And I 
think this is an important hearing.
    I was mentioning that I was--I am a member of the Judiciary 
Committee and Intellectual Property Subcommittee and we have 
had a review of this subject there from the copyright point of 
view, and essentially really this is a copyright exception if 
you want to get down to what we are talking about. And 
copyrights are a one-size-fits-all. I mean right now you get 
the life of the author plus 70 years and you lock it down and 
there it is. And the question is do we want to make an 
exception for federally funded research in the interest of 
science.
    And full disclosure, I am a cosponsor of the Federal 
Research Public Access Act because I think if you take--if you 
really dig down into it, you have to reach the conclusion that 
that is going to serve us better.
    You know, when we have disruptive technologies, incumbents 
who have done--I am not critical; I mean they have played an 
important role but the world changes and it is difficult to 
change. And I think about there is for-profits that are making, 
you know--one company that does the outsourcing of journal 
production for smaller societies earned $3.3 billion last year. 
I mean that is something they don't want to give up. I 
understand that. The small societies, this is an important 
source of revenue for them, I mean, because they are paid fees 
and it is important I think to America that those societies 
persist. So the question is how can that happen if this model 
changes, which inevitably it will?
    And finally, I guess it is to the peer-review process and 
how can we make sure that there is value added in the 
publication? And I guess that is the question I have for the 
witnesses. It is worth pointing out that the bill that Mr. 
Doyle has introduced permits peer review journals to have some 
exceptions and the like while allowing the author to not be 
constrained as is often the case when an author gives up their 
rights to the publisher.
    And the question is as the NIH has moved forward in this 
area is I haven't seen any evidence that there has been an 
adverse impact. And I am wondering if anybody can cite data to 
me that delineates the adverse impact from the policy.
    Dr. Taylor. Thank you. I will start there in the middle of 
your questioning, Representative Lofgren, when you mentioned 
that small professional societies are vital to the fabric of 
the country and scholarship here. As a Director of one of those 
societies, I couldn't agree more.
    As to how to help ASPB and other smaller societies----
    Ms. Lofgren. Actually, the question I had was about data 
damaged from the NIH policy. Do you have any data on that?
    Dr. Taylor. The only data I have--and it would not 
necessarily imply damage--but is--has to do with the usage of 
our journal articles over time, so the fact that most of the 
usage is happening after the first six months.
    Ms. Lofgren. I don't have a lot of--Mr. Maxwell, maybe you 
have data.
    Mr. Maxwell. Well, the only data that we found in the 
public record were assertions by the publishers that there was 
damage and a citation of a study that took place before the 
policy went into effect that said librarians might cancel. We 
looked very hard for the evidence and we asked people about it. 
What I might suggest is that the people--that you look at the 
financial analysts who looked at this science and technology 
publishing sector and those folks say, one, that the publishers 
come to them and say this is not a real big deal for us. And 
they say that their rate of profit growth after the recession 
is likely to come back up to six and seven percent as opposed 
to the four percent profit growth during the recession. We 
don't see economic damage and we don't see the publishers 
telling the analysts who advise investors that this is a 
problem.
    Ms. Lofgren. Well, Elsevier had a 37 percent profit margin.
    Mr. Maxwell. They are higher in general than most 
businesses because they have per article a monopoly. If you 
want this article, you have to get it from Elsevier unless you 
are willing to wait for 6 months or 12 months or whatever. And 
people who need it, in particular the private sector people who 
would build on this don't want to wait.
    Ms. Lofgren. Well, I just--my time is just about up but I 
would note I haven't heard anybody cite data, and since this is 
the Science Committee, we are data-driven. But the loss cannot 
be calculated because it is what didn't get invented; it is 
what didn't get discovered because of the lack of information. 
That can never be calculated.
    And with that, Mr. Chairman, I yield back.
    Chairman Broun. Thank you, Ms. Lofgren.
    We will go to our second round of questions now, and 
Chairman recognizes himself for five minutes.
    Mr. Dylla's testimony notes the projects at DOE and NSF 
related to public access. Would everyone please comment on 
projects such as these, whether they are a model for other 
agencies to follow and whether they provide any guidance on how 
Congress should address public access? The whole panel, we will 
start out with Mr.--Dr. Dylla. Go ahead, sir.
    Dr. Dylla. The previous question addressed the proper role 
of government in the marketplace and what has been put in place 
with the collaborations dictated by the--Section 103 of the 
COMPETES Act I feel is working out very nicely with two 
agencies that I have spent 35 years working with--the 
Department of Energy and the National Science Foundation.
    I give you one cogent example of about a half-dozen pilot 
projects that we have been working on since the COMPETES Act 
was passed. A very simple question that one of you might ask a 
program manager from the National Science Foundation or the 
Department of Energy is, please, Mr. Program Manager, can you 
tell me how many scholarly publications resulted from your 
funding last year? And that is a very difficult thing to answer 
because it turns out an author puts that required information 
that the underlying research was funded by one of those 
agencies in an arbitrary place in the journal. It might be in 
the acknowledgement; it might be in a footnote. It is buried. 
So for the agency to dig out that information by itself 
requires quite a bit of data mining.
    A consortium of publishers called CrossRef, which includes 
many libraries and research institutions, has a funded project 
now that includes those two funding agencies that allow any of 
the 11 funding agencies to identify the articles that result 
from their funding with the Social Security number that my 
colleague, Crispin Taylor, mentioned, the Digital Object 
Identifier number. So a random member of the public could come 
to the NSF website and find the author, the institution, and 
the title of the articles by year, and when they see that DOI 
number, they would be linked to the version of record on the 
publisher's site. And if they don't happen to have a 
subscription, there are 40 publishers within our consortium 
that are--have been piloting for the last year a modest cost 
article rental model. We have been doing it for about a year 
and a half at the American Institute of Physics. Eight million 
people a year come to our website. They are mainly researchers. 
Three thousand people came which we assume were random members 
of the public to take advantage of this service.
    But that is just one example of the partnerships and pilot 
projects that have been put in place as a result of the 
COMPETES Act.
    Chairman Broun. Mr. Shieber?
    Mr. Shieber. Yes. I wanted to use Dr. Dylla's example, talk 
a little bit about that. He talked about a project to allow 
funders to figure out what--how many papers were being 
acknowledged as a project I think with NSF now. And first of 
all, of course, this is not a project to increase access to the 
articles but it does provide useful information. But it also 
gives us the opportunity to look at a phenomenon I think is 
important, which is how openness often trumps other kinds of 
functionalities.
    For the open-access literature, of course, you can imagine 
automatic computer analysis of the open articles to data mine 
for exactly this information. In fact, a computer science 
colleague of mine at Penn State has actually implemented such a 
system only available for the open-access literature that 
automatically data mines the acknowledgements of articles and 
anybody can search--you can search for an NSF grant number and 
see all the articles that at least that are openly available 
for which the data mining is possible that acknowledge the 
funder. So these kind of projects are wonderful and necessary 
to the extent that they allow this kind of functionality for 
the closed literature, but of course, they would be redundant 
if the literature were just open in the first place.
    Chairman Broun. Thank you, Mr. Shieber. My time is about 
expired. And by the way, if any of you all--we are going to 
give you some written questions and any of the questions that 
you are asked if anybody wants to weigh in and give us an 
answer, we would appreciate that.
    I now recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Dylla, why don't we go back to the earlier question 
that unfortunately you didn't have a chance to answer? And that 
was about the downsides to giving markets and technology time 
to work their magic. Do you cite any downsides?
    Dr. Dylla. Post the Scholarly Publishing Roundtable and 
many of its recommendations showing up in the Section 103 of 
COMPETES, I think most of the downsides have been minimized 
because you have all cohorts working together, government as 
the funder of scientific research, the scientists and 
librarians and publishers working together on these issues as 
the COMPETES Act proposed. So as you mentioned in your opening 
statement, Representative Tonko, this has only been in place 
for about a year and we should let this play out and it is 
playing out. It won't solve all the problems as quickly as 
everyone wants those problems solved, but I think it is playing 
out very nicely.
    Mr. Tonko. Thank you.
    And a question to perhaps you and Dr. Taylor, grant awards 
are peer-reviewed before the research is done, and when the 
research is finished the only peer review the results receive 
is at the stage of submission for publication. And with our two 
Ph.D. scientists on the panel, I wonder if you can explain why 
peer review is important to the progress of science, and how 
emerging publishing trends may be changing that peer-review 
process? And by the way, any of you can respond to this but I 
thought perhaps our two scientists might want to. Dr. Taylor?
    Dr. Taylor. Thank you very much, Ranking Member Tonko.
    So I think peer review is important for a whole bunch of 
different reasons at the level of journal publication. Most 
importantly, the function of peer review is to assess the 
validity of the conclusions that the author of the article is 
drawing from his or her research work. So I think that is the 
fundamental level. And that toggle is really important because 
without that stamp of validity, it is impossible to accept the 
statements as valid and true.
    The more subtle parts of peer review have to do with things 
like novelty and impact, which are--novelty is not--is easy to 
quantify but impact is perhaps a little bit qualitative. And 
this has to do with author choice and their assessment of the 
novelty and impact of their journal articles in terms of where 
in the hierarchy of journals they choose to submit their work 
in the first place. So in addition to providing a basic level 
of this is good work, this is sound work, peer review is also 
sort of a ranking system in terms of the community--the 
scientific community's assessment of the impact of our work.
    Mr. Tonko. And with any of the publishing trends, is there 
anything that may change that peer review?
    Dr. Taylor. That is a good question. It is already 
changing. A very prominent publication called PLoS ONE that is 
relatively new has a form of peer review that focuses on the 
first part of what I said--this is sound work--but is less 
interested in the second part--this is particularly impactful 
or novel work. And it is a model that is working very well for 
PLoS ONE and that a number of other publishers are attempting 
to replicate.
    Mr. Tonko. Thank you. Dr. Dylla?
    Dr. Dylla. I think everyone on the witness stand here would 
agree that the most fundamental value that the publishing 
enterprise brings to science is this peer-review process. And 
it is often said, well, publishers don't pay the peer 
reviewers. As an academic, we do this--we feel this is the most 
important part of our service to the Academy. We write 
articles, we expect them to be reviewed by our peers, we become 
peer reviewers for our colleagues.
    But I will give you an example from the American Institute 
of Physics. We publish 15,000 physics articles every year in 
five journals. We have to manage the peer-review process for 
about 50,000 reviewers. That involves paying about 130 Ph.D. 
scientists all over the world. We pay down their academic time 
so they can help us manage this. So this is not a cost-free 
process. Often, when the argument goes to let's just put it up 
the web and have it crowd-sourced, I remind you the difference 
between a restaurant you--a restaurant review you might get 
from one of these crowd-sourced reviews and one that you get 
from Michelin when an expert spends five different visits. It 
is not quite the perfect analogy but it works somewhat.
    Mr. Tonko. Thank you very much. I yield back.
    Chairman Broun. The gentleman's time is expired. Thank you, 
Mr. Tonko.
    Now, I recognize Ms. Lofgren for five minutes.
    Ms. Lofgren. Well, thank you very much. You know, as I am 
listening here, you know, I am thinking that really the 
journals have--they served a function as gatekeepers, and I 
don't mean that necessarily in a negative sense. I mean there 
is a pro and con. You know, some say there is good research 
that never got out because of it and others, you know, you kept 
out flimflam and there is probably truth in both assertions. 
But it is a model that I think ultimately is unsustainable in 
the current environment. I mean you have got--the scientists 
are not paid anything. The peer reviewers are not paid 
anything. And I grant you that I am sure it does cost to manage 
a large number of the peer reviewers, so I am not discounting 
that and I see that as an identified need to address, because 
whether Mr. Doyle's bill passes or not, the current model is 
going to fall apart. Because there is no reason why a for-
profit company should make $3 billion when the scientists 
aren't paid and the peer reviewers aren't paid and there is a 
possibility to structure this in a completely different way.
    And so the question I have is whether or not Congress does 
something or whether we just let this morph. It is going to 
change. And how do we identify and protect the things that are 
valuable to protect, which is the need for peer review--that is 
not going to be a barrier to publication but certainly of value 
to the scientific community--and a further need which is to 
support the scientific societies, especially the smaller ones 
that get some revenue from the current system and will not be 
able to do that. When the Internet and connectivity blows them 
away, how do we preserve those good societies that give value?
    And instead of--you know, I have seen this over in the 
Judiciary Committee where content holders cling to old business 
models and it is ultimately a failing effort, and it would be 
smart to think about how do we preserve the good things? So if 
people have comments on that.
    Mr. Plutchak. It is a great question and I think it really 
is the critical question. A couple of points to make. In regard 
to the cost issue and publishers, it is important to recognize 
that Elsevier, although they get all of our attention--and 
certainly as a librarian I share the frustration of my 
colleagues--they only control about 20 percent of the journal 
publishing. Most publishers don't come anywhere near these 37 
percent profit margins. And as much as I would like to see a 
system in which we do not have a single company having that 
kind of control at those sorts of margins, I think we have to 
recognize that most publishers don't come close to that.
    Look at the Public Library of Science, which is considered 
to be--their flagship journals are absolutely as high-quality 
as any. They charge around a little less than $3,000 a piece to 
publish an article. They recognize that there is that cost. So 
we have to be a little bit careful about that argument about 
how much--what is done for free and what is not. But then I 
think moving forward towards how we pull this together, I don't 
think it is a question of do we legislate something now or do 
we just let it go? I think we have to work through the process 
that brings these stakeholders together.
    Ms. Lofgren. Or not. I mean the Federal Government has paid 
for this research and we have an interest and the taxpayers 
have an interest in getting that information out as swiftly as 
possible if there is no damage done.
    Mr. Maxwell, you were looking eager to add in.
    Mr. Maxwell. Well, the only thing I would probably differ 
with my colleague on the panel about the profitability of the 
sector. It is not only Elsevier that has had higher-than-normal 
returns of capital but a number of publishers. In fact, the 
largest publishers have had a higher return of capital and a 
long-term ability to raise their subscription rates over the 
last 30 years.

    I do think that Dr. Taylor's point which he made earlier 
about the success of the PLoS model, which is one in which the 
author pays and which there is already a kind of working peer-
review system for--that produces the quality that he had 
mentioned means that you have the kind of market innovation 
that you are seeking. There are ways of doing this, of ensuring 
quality consistent with open access and we should be 
encouraging that.
    I don't think that we should believe that change will occur 
as quickly as I think it should absent the presence of 
legislation and----
    Ms. Lofgren. If I may, my time is running out. I agree 
which is why I am a cosponsor of the bill, but I think even if 
the bill does not pass, this model is dead. It is just a 
question of how long the patient is going to be on life 
support.
    I yield back.
    Chairman Broun. Thank you, Ms. Lofgren.
    We will go to our third and final round of questions so I 
will yield myself five minutes.
    To the panel, PubMed Central blocks mass downloading for a 
variety of reasons, one of which is general piracy from 
countries such as China. How serious is this issue and are 
there examples of mass downloading attempts at other online 
journals and archives?
    Second question, should limitations be placed on access to 
prevent misuse? How should that be decided and who should 
decide it? And thirdly, should research funded by U.S. 
taxpayers be made publicly available to non-U.S. taxpayers? 
Could this even be prevented? The panel? Dr. Taylor?
    Dr. Taylor. I think I can say a few words about the first 
and the third question. It is very hard for us to assess 
whether and if it is happening the extent of damage from mass 
downloading from sites like PubMed Central because we get very 
little usage data from PubMed Central. We don't know who 
specifically is using our content on the PubMed Central site, 
so we can't speak to downloads--mass downloads; we can't even 
assess whether it is library users who would be potential 
subscribers for the Society that are using the content. So I 
can't answer that question.
    In terms of making publicly--making content produced 
following research funded by the U.S. taxpayer available 
universally, you know, for a society like ASPB, that is okay. 
And one of the problems that I have with bills like FRPAA is 
they are focused only on the content that is produced from 
research funded by the U.S. taxpayer. As a professional society 
with members around the world publishing papers from authors 
around the world, if we want to disseminate that content, we 
want to disseminate it to everyone, not only with a narrow 
focus on the United States or on research funded by the U.S. 
taxpayer.
    Chairman Broun. Dr. Dylla?
    Dr. Dylla. Let me address the download problem. Let me 
start by saying the scholarly publishing industry is an 
industry that embraced the Internet in its early days. We are 
not a Johnny-come-lately to this Internet storm. Our journals 
at the American Institute of Physics and our sister societies 
went on--started going online in 1994, about two years after 
the web was invented by a group of physicists I remind you. And 
what happened----
    Chairman Broun. Not by Al Gore?
    Dr. Dylla. No, it was not. When we made the print-to-online 
transition, if you take a typical university in the area here 
like the University of Maryland, research university--our 
offices are on their campus--we, in the print days, probably 
had 10 subscriptions coming into the campus, the main library 
and sister libraries, we went online. There were suddenly all 
40,000 people who had a Maryland.edu address could get that 
content. And to address inappropriate use we would have circuit 
breakers on how many downloads at a particular email address. 
And if you suddenly saw 10,000 downloads, that was somebody 
that was doing no good.
    And so the industry as itself--and I am a member of the 
Executive Committee of two of our trade associations for 
scholarly publishers that include a broad representation of 
nonprofits and profits--we carefully monitor this but it is--
you can only pick and choose an occasional flagrant. And they--
it is like piracy in other types of intellectual property.
    Chairman Broun. Okay. Mr. Shieber?
    Mr. Shieber. Yeah, I did want to question perhaps a 
presumption in part of your question which is that mass 
downloading is somehow inherently bad. There are, of course, 
good reasons to allow mass downloading where rights to do so 
are available. And I think the prohibitions against PubMed 
Central mass downloading have to do with the fact that they 
don't have the rights to allow mass downloading, arbitrary use 
of the data. They just have rights to allow researchers to 
download individual articles. For the subset that they do have 
rights, the so-called open access subset of PubMed Central, 
they do allow mass downloading. And in fact, Harvard 
participates in that and downloads those articles en masse. 
So--and the various uses that can be made including text mining 
of that data. So to the extent that there were broad rights to 
allow that more generally, mass downloading would be a useful 
thing to be able to do.
    Chairman Broun. Well, we are just trying to prevent folks 
who are up to no good from mass downloading and make it harder 
to be able to do so that is questioned.
    My time has expired. I now recognize Mr. Tonko for five 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    This public policy area is a bit new to me so I am trying 
to get a better understanding of the interpretation of the NIH 
policy. Perhaps across the panel if you could address the 
adopting of NIH as a policy by agencies, all agencies. Is that 
a good thing? Is it a functional policy or is there 
modification that would have to be made? I just would like to 
hear your thoughts about imposing that or adopting it at all 
agencies. Sure, Dr. Dylla.
    Dr. Dylla. Going back to the discussion on the floor 
already about one size doesn't fit all, there are fields where 
the 6-month proposed embargo I feel would be very 
inappropriate, even for the fields that the American Institute 
of Physics represents. The journals that we publish for the 
physics community and one of our sister sites, the American 
Physical Society, has equal number of journals. If you look at 
how those are distributed just here in the United States, 40 
percent of our subscription income comes from small colleges 
and universities that are not research universities.
    So if we were to go to a different business model where 
that content would have to be given away in 6 months, I remind 
you what the unit of time that a librarian works with. It is 
one subscription year. At these small colleges and 
universities, it is the librarian who has intense budget 
pressures might say, well, we don't want to have those 
subscriptions anymore. And I think we would be looking at a 
sizeable disruption of our source of income, which is used to 
promote physics for the general welfare. We do a lot of 
outreach in media and student education activities with those 
funds. We would find it very disruptive to put our entire 
business model into that one type.
    Mr. Tonko. Mr. Maxwell, we will go across the table here.
    Mr. Maxwell. As I said earlier, I think that the thing that 
is common across every field is that there would be benefits to 
the public if materials were made available. And we should 
start there because that is the undisputable fact across the 
panel. More access means more research means more 
commercialization and quicker commercialization and more 
economic growth. If there is to be a differentiation--because 
the NIH policy is I think by most lights a very great success--
if we take that as a model and say perhaps that the agency 
could have a policy process that says within a year you decide 
whether for your community this works, that at least would be 
able to move this process and get the benefits more quickly 
available. And then let people try to see whether there is 
something unique about that. But it is this lost innovation 
that bothers me when--which would be if we kind of dribble out 
the policy while people protect their margins.
    Mr. Tonko. All right, thank you. Dr. Taylor?
    Dr. Taylor. Thank you, Ranking Member Tonko.
    I would like to just remind everybody that the NIH policy 
came into effect as a few sentences in an appropriations bill, 
arguably without due consideration in a committee like this 
one. That being said, I think there are two parts to the 
policy. One is the imposition of an embargo period. The second 
is a requirement that articles be deposited in a centrally 
operated, government-run archive. I think, you know, we have 
talked about embargos but with regard to the second aspect of 
this, in this day and age such an archive is simply not 
necessary. The information is there available on the Internet 
and discoverable and usable without having to have it in one 
place. So in that sense, the NIH is in my opinion wasting money 
on PMC.
    Increasingly, PMC is duplicating. It is looking an awful 
lot like our platforms, our publishing platforms and it is 
becoming increasingly competitive with the publishers directly, 
which I think is a problem, too.
    Mr. Tonko. Thank you. We have about a minute left so if I 
could have Mr. Shieber and Mr. Plutchak split that time, I 
would love to hear your comment.
    Mr. Shieber. I won't repeat other comments that have been 
made but I will make one mention about the issue of whether 
there should be a central repository or some other mechanism. 
To the extent that the mechanism in whatever bill that one 
imagines doesn't mandate a central repository, that is fine so 
long as the articles can then be mined and mirrored in 
government-run repositories and more broadly than that. But 
if--but I would avoid a prohibition against doing the kind of--
making the kind of uses that do allow for preservation and 
government repositories and the like.
    Mr. Tonko. Thank you. Mr. Plutchak?
    Mr. Plutchak. Just very quickly, the two basic limitations 
that I see with extending the NIH policy we have alluded to 
this central repository which I think is unnecessary and a lack 
of focus on the version of record. I think that needs to be 
stressed in any policy.
    Mr. Tonko. Thank you.
    Chairman Broun. The gentleman's time is expired.
    I now recognize Ms. Lofgren for five minutes.
    Ms. Lofgren. Yes, I am wondering if you could tell me on 
behalf of the American society for the plants and the physics 
institute, what percentage of the revenue for your institute, 
for your society comes from publishing and the publishing--this 
whole business?
    Dr. Taylor. Thank you very much for the question, 
Representative Lofgren. For ASPB it is roughly 80 percent of 
our revenues come from publishing.
    Ms. Lofgren. Okay. How about physics?
    Dr. Dylla. It is more than 90 percent. We don't have 
members; we just have Member Societies so a typical scientific 
society will have income from member dues and from running 
meetings. All of our income virtually comes from publishing.
    Ms. Lofgren. Okay. So that is, I mean, a major challenge in 
terms of if we want to preserve a multiplicity of societies as 
this model changes, whether quickly through legislation or 
naturally because of the disruptive technologies, we have got 
to come up with some strategies to support these scientific 
societies that are workable. And I would hope--this is not the 
subject of this hearing, but I think it would be a good subject 
for a hearing. How are we going to be able to do that?
    I would like to--let me just ask a question--and I see Mr. 
Maxwell and Dr. Taylor want to address the first subject, but 
Dr. Taylor said something I thought was very interesting, which 
is the exemption being proposed is limited to taxpayer funded 
and why that would be. And one of the options that we have is 
to remove copyright protection from publishers who do not 
compensate--and have the copyright ownership remain only with 
the author him or herself. And that would be true worldwide 
because anything published in the United States, no matter who 
the ethnicity or origin of the author, is subject to copyright 
law within the United States. I am wondering--that would be 
even more disruptive than Mr. Doyle's bill but would that 
actually serve--Mr. Maxwell, you are nodding. I don't know if 
that is what Dr. Taylor had in mind but that is the logical 
extension of his comments. How would that work at a Harvard? 
How would that work, Mr. Maxwell?
    Mr. Maxwell. Well, I think that would throw all the cards 
up in the air. I am not advocating that and the report didn't 
advocate that. What I did want to--the point that I did want to 
make about the societies is that the revenue streams that are 
generated by--for the societies through the publishing isn't 
necessarily going to go away. The PLoS model is that the author 
pays. And so there is a revenue stream that keeps coming. It is 
not saying you are deprived ultimately of the revenue; you are 
deprived of a particular business model, which is a 
subscription-based business model. And more and more of the 
subscription-based models are becoming hybrids in which they 
are partially author-paid.
    Ms. Lofgren. If I may, I question whether that can survive 
as a model either. I mean we are moving from--away from a 
scarcity-based system, and why would an author pay a gatekeeper 
when you can develop through universities or others completely 
other systems that meet the scientific requirements just as 
well?
    Dr. Taylor. Because the scholarly publishers are providing 
the services of peer review, which we talked about earlier and 
ranking, which are--the peer review is fundamentally important 
for the reasons we have discussed. The ranking allows other 
scholars to assess that particular piece of research in the 
context of the larger body.
    Ms. Lofgren. Mr. Shieber?
    Mr. Shieber. Yeah, Representative Lofgren, I think you are 
exactly right on focusing on where the scarcity is and you are 
right that the technology changes that balance and the scarcity 
of access is now completely artificial. But there is still--as 
Dr. Taylor says, there is still an item of scarcity and that is 
the effort that goes into--that is involved in the peer-review 
process that ends up being uncompensated, but the management of 
the peer-review process is compensated to the publishers, the 
copyediting, typesetting, and imprimatur of the journal. All of 
those kinds of things are.
    Now, those are all costs--real costs and important--provide 
important services. They scale with the number of submissions 
and articles, not with the amount of access. And that is why a 
revenue model that also is based on that side of the equation 
makes a lot of sense, in addition to the fact that it is not 
based on a monopolistic product----
    Ms. Lofgren. Um-hum.
    Mr. Shieber. --and the fact that it doesn't embed a moral 
hazard and all kinds of other economic advantages. So I don't--
I am not sure I agree with your claim about the 
unsustainability of the whole system. I think----
    Ms. Lofgren. Well, I always like to throw disruptive 
statements out there in Christensen form. But I think your 
comment is a very thoughtful one and actually delineates the 
very useful role played by the societies and the journals, and 
the potential way for that to be sustained economically.
    Mr. Shieber. Can I mention one other thing? It highlights 
potentially extraordinarily important role for government, 
which is to--just as government funding agencies and 
universities have been subsidizing on the reader side by buying 
subscriptions, government funding agencies and universities 
should be willing to subsidize on the writer side for these 
kind of author-side payment models to put them at a level 
playing field. In fact, Harvard has done just that in 
cooperation with a small set of other universities by 
committing to paying reasonable open-access publication fees.
    Ms. Lofgren. I see my time has expired. I would just like 
to say, Mr. Chairman, I appreciate that you have held this 
hearing because although the Judiciary Committee with 
jurisdiction over copyright has looked at this, there is no way 
that we would ever have gotten into this discussion which is 
how to organize the funding of science so that this is 
preserved. So that is very helpful. Thank you very much.
    Chairman Broun. Thank you, Ms. Lofgren. In fact, I have a 
very strong opinion about property rights, including 
intellectual property. And I thank you and all the members for 
their questions.
    And I thank all of you all, the Members of the panel, for 
you all's valuable testimony. If you don't know southern, y'all 
means all of you all. But Members may have additional 
questions, and actually, I would like to submit some of our 
oral questions to all of you all so that if you want to add 
something if somebody did not have a chance to speak, I would 
appreciate you all's expeditious answer in writing to those 
questions. Members can submit questions for written answer. The 
record will remain open for two weeks for additional comments 
from Members. The witnesses are excused and the hearing is now 
adjourned. Thank you all.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. H. Frederick Dylla


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Elliot Maxwell



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Crispin Taylor



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Stuart Shieber



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Responses by Mr. Scott Plutchak



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record



             Letter submitted by Representative Zoe Lofgren



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 Response to Federal Register Notice Request for Information submitted 
                       by Dr. H. Frederick Dylla 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 Response to Federal Register Notice Request for Information submitted 
                         by Dr. Crispin Taylor




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             ALPSP Response to OSTP Request for Information



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
